                AUDIT REPORT
                   12-14




              GPO Parking Program
Opportunities Exist to Further Strengthen Controls

                 July 25, 2012
Date
July 25, 2012
To
Director of Security Services
Chief Financial Officer
From
Inspector General
Subject
Audit Report - GPO Parking Program: Opportunities Exists to Further Strengthen
Controls
Report Number 12-14

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the body of the report. The draft report contained individual names to assist
management in its response. Those names have been redacted from this final
report. We consider management’s comments responsive to all of the
recommendations. Recommendation 5 is closed upon issuance of this report.
Recommendations 1 through 4 are resolved and will remain open pending our
verification of the completion of the agreed upon corrective actions.

We appreciate the courtesies extended to the audit staff. If you have any questions
or comments about this report, please do not hesitate to contact me at
(202) 512-0039.



Michael A. Raponi
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Contents

Introduction .................................................................................................................................................. 1

Results in Brief ............................................................................................................................................. 2

Background .................................................................................................................................................. 5

Results and Recommendations ............................................................................................................ 6

Appendix A – Objectives, Scope, and Methodology ...................................................................... 14

Appendix B – Management’s Response ............................................................................................. 16

Appendix C –Results of Parking Lot Inspections ........................................................................... 22

Appendix D – Employees in Parking Program without Allotments ....................................... 23

Appendix E - Status of Recommendations ....................................................................................... 24

Appendix F - Report Distribution ........................................................................................................ 25

Major Contributors.................................................................................................................................... 26
                                Office of Inspector General

Report Number 12-14                                                               July 25, 2012


                           GPO Parking Program
             Opportunities Exist to Further Strengthen Controls

Introduction

The Office of Inspector General (OIG) initiated an audit of GPO’s Employee Parking
Program in response to a request from the Acting Public Printer.

Since 1993, GPO leased one of its six parking lots on H Street near the corner of New
Jersey Avenue in Washington D.C. In January 2012, a local real estate developer
began to transform that parking lot into a multi-purpose complex. As a result, GPO
had to vacate the parking lot and make other arrangements for its employees.
During that process, GPO re-issued parking permits to select parking program
participants to reflect the change. While reissuing parking permits, the Office of
Finance and Administration discovered that 18 1 employees participating in the
parking program did not have a corresponding allotment to withhold the required
parking fee from their paycheck.

Concerned with the integrity of Parking Program as a whole, the Acting Public
Printer asked the OIG to determine whether controls were in place to ensure that
employees were following parking policies and only authorized employees were
parking in GPO parking facilities.

The Parking Program was initiated at the direction of the Joint Committee on
Printing which authorized GPO to direct and maintain a parking program to
accommodate the parking needs of the 24-hour personnel duty shifts at GPO
Headquarters. Until February 2012, the Parking Program was administered by the
Office of Finance and Administration when it was then moved to the Office of the
Director of Security Services. To participate in the parking program, GPO employees
complete an Application for Parking (GPO Form 2881A-C) and a Request and
Authorization for Allotment of Compensation for Pay Parking (GPO Form 1878). The
parking application identifies the car, employee work-shift, parking lot assigned and
certifies that the employee will comply with GPO parking regulations. In FY 2012,
the signed allotment allows GPO to withhold $45 in pre-tax dollars from an
employee’s paycheck each pay period. Previously, the allotment was $26 each pay
period.

1
 Subsequent to the issuance of our draft report, a 19th employee was discovered as participating in the
parking program but not paying.


                                                     1
The Director of Security Services is responsible for program administration, to
include enrolling participants and ensuring eligibility, cross checking participants
with the Transit Subsidy Program and carpool participants, establishing and
monitoring procedures for distributing parking permits, and evaluating the
effectiveness of the program. As of April 2012, GPO maintained six parking lots
around the vicinity of GPO’s Washington, DC Headquarters to accommodate 824
vehicles registered in the GPO parking program.

This audit was conducted to answer the following question: “Do opportunities exist
to enhance controls over the Parking Program and provide assurance that only
authorized employees are parking at GPO parking facilities?”

The audit fieldwork was conducted between February 2012 and April 2012. To
achieve our objective, we reviewed and discussed with officials, Parking Program
policies and procedures in place from Fiscal Year (FY) 2007, to April 2012. This
period was judgmentally selected. We also (1) conducted a walk-through of the
process, (2) performed an inventory and accounting of parking permits, (3)
reconciled issued parking permits with parking agreements and payment
allotments, and (4) conducted several inspections of the GPO parking lots. For this
audit, we tested those control activities that we considered to be key in creating a
system that prevents and detects fraudulent, improper, abusive, and wasteful
activity in the parking program. Those key controls activities include reconciliation
of the parking fees received and the parking permits issued and standard operating
procedures. We also tested program monitoring.

Until February 2012, the Parking Program was administered by the Office of
Finance and Administration when it was then moved to the Office of the Director of
Security Services. Therefore, with the exception of our review of temporary permit
receipts, the Office of Finance and Administration was responsible for program
administration during the scope of our review.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Our objective, scope, methodology, and criteria are
detailed in Appendix A

Results in Brief

In an effort to strengthen and maintain effective internal controls over the Parking
Program, GPO Directive 850.1G, GPO Parking Directive and Administration, was
revised on February 23, 2012. GPO also moved the Parking Program from the
Office of Finance and Administration to the Office of the Director of Security Services


                                          2
to better align duties and responsibilities with related activities such as their
mission to control building access. We commend GPO for those efforts.

Even with those enhancements, we identified opportunities to further strengthen
controls over the Parking Program. For example, our audit substantiated concerns
that some employees were not adhering to the program directive. In fact, 19
employees did not pay for parking while using GPO parking facilities, on average for
over four years, and in one case for seven years. Those employees told us they
mistakenly believed parking fees were being deducted from their bi-weekly
earnings and that they did not review their Earning and Leave Statements to
confirm that parking fees were properly deducted. Those employees failed to pay
parking fees totaling $54,230.

We noted 794 of 3,656 (22 percent) permits could not be accounted for since GPO
acquired them in FY 2006. The Manager, Cash Management Services told us that she
believed many of the unaccounted for permits result from employees in the parking
program who separate from GPO without notifying the Agency and leave without
turning in their permit. This poses an increased security risk of possible
unauthorized access to GPO parking facilities.

We identified 115 permits that were not properly secured. The permits were
located in a locked cabinet in the Parking Program Administrator’s office instead of
the Manager, Cash Management Services locked office where 1,457 were kept.
Those 115 permits were not inventoried and there was no record of whose
possession they were in.

Nearly 47 percent of the parking program records we tested were inaccurate or
incomplete. Specifically, we tested a random sample of 60 parking permit records
and found 12 permit records were identified as issued but with no record of
issuance by either a parking application or allotment form, 8 permits were
destroyed without a record of destruction, 1 permit was reported lost but we could
not find an associated police report, and there were not any records for 7 permits.

We observed permits were not always displayed on all parked vehicles. On March
8th, 15th, and 29th, we identified 10 parked vehicles without parking permits. We
traced four vehicles to non-GPO employees and could not determine vehicle
ownership for three vehicles. This issue may raise security concerns as well as the
possible loss of parking fees.

We could not audit temporary permit receipts because all associated documents
were shredded when the Parking Program was transferred to the Office of Security
Services.

We attribute these weaknesses with two key components of the internal control
system: control activities and monitoring. Internal control weaknesses in agency
programs expose GPO to fraudulent, improper, and abusive loss of assets. We noted


                                            3
control activities such as reconciliations were not performed between parking fees
received and parking permits issued and documented standard operating
procedures were not developed and maintained. We also noted monitoring or
internal evaluations were not performed.

As a result, we found numerous examples of misuse within the Parking Program and
the potential loss of parking program fees. Our work was not designed to identify
all instances of fraudulent, improper, and abusive activity or estimate the full extent.
Therefore, we did not determine and make no representations regarding the overall
extent of fraudulent, improper, and abusive transactions in the GPO Parking
Program.

Recommendations

In general, we recommended that the Director of Security Services and the Chief
Financial Officer continue to work towards the goal of developing and maintaining a
parking program in compliance with GPO policies by strengthening key controls
such as: (1) reconciling parking fees received with parking permits issued, (2)
develop and document standard operating procedures, (3) monitor and conduct
internal evaluations of the Parking Program, and (4) collect the $54,230 in unpaid
parking fees.

Management’s Response

Management concurred with all of the recommendations. GPO has developed
standard operating procedures, is planning a reissue of parking permits, has
redesigned permits with additional security features for better control, has
implemented a review process that will monitor withholdings for all parking
program participants, and has initiated collection action against those employees
who have parked without paying. The complete text of management’s response is in
Appendix B.




                                           4
Background

GPO employees can participate in the parking program, at a cost of $45 in pre-tax
dollars per pay period. That amount increased in 2012 from $26 per pay period,
due to the additional cost of procuring parking because of the expiration of a long
term lease for one parking lot. In 2012, we estimate that GPO will recoup $1 million
from employee payments for parking.

As of February 16, 2012 there were 1,731 employees assigned to GPO’s Metro
Washington, DC location. GPO records showed that 804 were participating in the
parking program, and 903 were participating in the GPO transit benefit program. 2
We queried a sample of employees who participated in neither program and found
that 46 percent either drove or carpooled but used a non-GPO parking lot, 14
percent carpooled using the GPO lots but were not registered in the GPO parking
program, 13 percent used public transportation but did not participate in the GPO
transit benefit program, and 27 percent walked or bicycled to work.

For an employee to join the parking program they are required to complete an
Application for Parking (GPO Form 2881A-C) and a Request and Authorization for
Allotment of Compensation for Pay Parking (GPO Form 1878). The parking
application identifies the car, employee work-shift, parking lot assigned and certifies
that the employee will comply with GPO parking regulations. The allotment form
allows GPO to withhold money from an employee’s paycheck for parking using pre-
tax dollars.

In addition to regular parking, GPO offers short-term and daily parking for
employees not in the parking program, GPO contractors, union representatives, and
GPO Credit Union and Cafeteria employees. A daily permit costs $7 per day and
payment must be made at the GPO cashier’s office. The receipt is then given to
either the Parking Program Administrator (day shift) or at the GPO police window
(swing and night shift). Permits are either a hand filled form, a 3-part form, a paper
hangtag, or a computer-generated paper form.

Over the course of the audit, GPO revised the parking regulation, issuing GPO
Directive 850.1G, GPO Parking Directive and Administration, February 23, 2012. GPO
moved the Parking Program Manager and their duties from the Office of Finance and
Administration to the Office of the Director of Security Services. The responsibility
for establishing procedures and controls for the receipt and accountability of money
received remained with the Manager, Cash Management Services under the Office of
Finance and Administration.



2
 GPO, through Directive 450.3A, Transit Benefit Program, July 11, 2005, implemented the Transit Benefit
Program to encourage employees to use mass transportation by assisting employees with their commuting
expenses.


                                                  5
Results and Recommendations

Our audit identified control weaknesses that increased the risk for abuse in the
Parking Program. Those weaknesses resulted in:

    •   Nineteen employees abusing the Parking Program by not paying $54,230 in
        parking fees while using GPO parking facilities, ,
    •   794 of 3,656 (22 percent) permits that could not be accounted for,
    •   115 permits not properly secured,
    •   47 percent of the parking program records tested being inaccurate or
        incomplete,
    •   Permits not always being displayed on all parked vehicles, and
    •   Temporary permit receipts and associated documentation being shredded.

This occurred because standard operating procedures for administering the parking
program were not developed and maintained. Reconciliations were not performed
between parking fees received and parking permits issued. We also noted
monitoring or internal evaluations were not performed.

As a result, we believe there is an increased risk that fraudulent, improper, or other
abusive activity could occur without detection. In this instance, we noted that 19
employees had been parking on GPO parking lots since 2008 without paying parking
fees, and 10 unidentified vehicles parked on GPO parking lots.

Parking Program Policies and Procedures

GPO Directive 850.1G states that the GPO Parking Administrator is responsible for
administering the Parking Program and the Manager, Cash Management Services
establishes procedures and controls for the receipt, accountability, and recording of
money received for parking payments.

Office of Management and Budget (OMB) Circular Number A-123 Management’s
Responsibility for Internal Control 3 requires that management controls must provide
reasonable assurance that assets are safeguarded against waste, loss, unauthorized
use, and misappropriation. Management controls developed for agency programs
should be logical, applicable, reasonably complete, and effective and efficient in
accomplishing management objectives. Following those guidelines, specific controls
applicable to the GPO Parking Program could include:

•   Reconciliation between parking permits issued and parking fees received.

3Although, as a legislative branch agency, GPO is not required to follow any OMB circulars, including
Circular Number A-123, the Circular provides a sound basis for internal controls for any
organization. GPO has incorporated the major requirements of Circular A-123 in its Directive
825.18A, “Internal Control Program”.



                                                  6
•   Accountability over all permits acquired, issued and unissued.
•   Adequate physical security over unissued parking permits.
•   Complete records of all parking fees and permits acquired, issued, returned and
    destroyed.
•   Documented standard operating procedures.
•   Periodic program review and recertification.

Reconciliation of Permits to Payments will Strengthen Program Integrity. The
Manager, Cash Management Services told us that prior to the second pay period of
calendar year 2012, reconciliations to verify that everyone in the parking program
paid the required fees through salary allotments were not performed.

The Manager, Cash Management Services told us that GPO now receives the listing
of payments directly from its payroll service provider—the U.S. Department of
Agriculture’s National Finance Center, and intends to review the report quarterly
against Parking Program participants.

Without a routine reconciliation, it is difficult to identify employees participating in
the Parking Program that are not paying parking fees. As demonstrated by Office of
Finance and Administration whey they performed this reconciliation they identified
19 employees who had been participating in the Parking Program, in some instances
since 2008, without paying parking fees of $54,230 (see Appendix D).

Unaccounted-for Parking Permits. Parking Program officials could not account for
794 (22 percent) of its parking permits purchased since 2006 as shown in Table 1
below.

                      Table 1. Accounting for Parking Permits

             Total Permits Purchased                               3,656
             Less:
               Permits in Inventory                      1,572
               Employees in parking program                824
               Lost and Destroyed permits                  466
             Total Accounted for                                  (2,862)
             Unaccounted-for Parking Permits                          794

The Manager, Cash Management Services told us that she believes many of the
unaccounted for permits result from employees in the parking program who
separate from GPO without notifying the Agency and leave without turning in their
permit . We did not validate that claim.

Proper Physical Security Needed of Parking Permits. Though not cash, at $45/pay
period times 26 pay periods, each unissued permit is worth $1,170/year in potential
revenue to GPO and therefore should be afforded the same control and security as


                                           7
cash. Guidance concerning the storage of cash is set forth in the U.S. Department of
the Treasury Manual of Procedures and Instructions for Cashiers, April 2001. That
document states that Agencies should develop procedures for securing cash
commensurate with the amount and specifically states that cash should not be
stored in file cabinets with key locks or desk drawers. As of March 6, 2012, GPO had
1,572 unissued parking permits. Of those, 1,457 were kept in the locked office of the
Manager, Cash Management Services in several nondescript boxes where the
Manager and the backup to the Parking Program Administrator had access.

The remaining 115 permits were located in a locked cabinet in the Parking Program
Administrator’s office, to which only the Parking Administrator had access. Those
115 permits were not inventoried and there was no record of whose possession
they were in.

Complete and Accurate Information Needed for the Parking Program. Twenty eight
out of 60 (47 percent) parking program records reviewed were inaccurate or
incomplete. The results of our review are in Table 2 below.

Table 2. Results of Review of Parking Permit Documentation
  Permit Status       Total Documented Exceptions          Analysis of Exceptions
Permit located in      25          25               0
the main storage in
the office of the
Manager, Cash
Management
Services
Permit Issued          17           5              12        Twelve permits were
                                                             documented as issued.
                                                             However, a record of
                                                             issuance supported by
                                                             either a parking
                                                             application or allotment
                                                             form did not exist.
Permit Destroyed       10           2               8        Eight destroyed permits
                                                             had no record of
                                                             destruction.
Permit Lost             1           0               1        Lost permit had no
                                                             associated police report
                                                             as required.
No Record               7           0               7
Permits Sampled        60          32              28

Accurate documentation of parking records provides for program integrity, ensures
proper space management of GPO parking facilities, and proper accounting for
revenues.

                                         8
GPO Directive 850.1G and its predecessor both require drivers to update
information annually, or when changes occur to the driver or car such as a change in
carpool membership, a change in vehicle or license number, a change in duty hours
or work shift, or whenever there is a reissue of permits (e.g. change of lots). The
Parking Administrator did not adhere to this requirement as we noted that, in some
instances, parking applications were over 6 years old.

We also identified inconsistencies with the records of lost or destroyed permits.
The Parking Administrator reported 466 (12 percent) permits as lost or destroyed.
However some of those permits were identified as lost and/or destroyed multiple
times, while others were identified by us as currently in use on the parking lot,
having been properly issued to a new employee. Although lost permits require a
police report to be filed, the Parking Program Administrator did not always
maintain those, nor did the Parking Program Administrator create a record of
destruction if a permit was destroyed.

Parking Permits Not Always Displayed. We performed three separate inspections of
the GPO parking lots and found 10 vehicles did not display a parking permit. We
traced four of the 10 vehicles to a non-GPO employee and could not determine
vehicle ownership for three vehicles. We also identified 15 vehicles that did not
clearly display permits. See Table 3 below and Appendix C for the detailed results of
our inspections.

Table 3. Results of Parking Lot Inspections.
    Date of        Vehicles Without a        Vehicles With Permit Not Clearly
  Inspection      Permit Displayed (1)                  Visible (2)
 03/08/2012                 2                                1
 03/15/2012                 5                                4
 03/29/2012                 3                               10
(1) “Without a permit displayed” – the vehicle had no permit.

(2) “Permit Not Clearly Visible” – We could not view the lot number and/or the serial number on the
permit, but were able to determine that the vehicle had a permit of some kind. The most typical
situations were either when the permit was placed very low in the window so we could not see the
serial number, or when it was put behind a handicap hangtag.

GPO Directive 850.1G paragraph 16(i) states that permits must be properly
displayed on the vehicle’s rearview mirror and one-day/temporary permits must be
displayed on the vehicle front dashboard, driver’s side and that failure to do so
could result in a GPO parking ticket.

Temporary Parking Permit Records Shredded. We could not audit any aspect of the
temporary parking process because all temporary permit receipts were shredded by
the Office of Security Services upon moving the Parking Program to the Office of
Security Services. We were told by the Office of Security Services that they wanted a
new start.



                                                 9
Directive 850.1G allows for the issuance of temporary parking permits for one-day
parking for employees not in the parking program; temporary parking for
employees with disabilities or to replace lost permits, or for visitor parking.
According to the Directive, the Parking Program Administrator is responsible for
issuing temporary parking permits. In order to receive a temporary parking permit,
a fee ($5/day prior to February 23, 2012, $7/day after February 23, 2012) must be
paid at the GPO Disbursing Office prior to submitting the request to the Parking
Program Administrator for the temporary pass.

Lost Parking Program Revenue. By implementing sound internal controls over the
parking program, we estimate that GPO could collect an additional $18,580 in
parking revenue per year calculated as follows:

    Table 4. Estimated Increased Annual Parking Revenue.
     Enforcement of Fee Collection from all Employees
     in the Parking Program (1)                                                 $12,730
     Enforcement of Parking Permit Requirement (2)                                5,850
     Total Additional Annual Revenue                                            $18,580
    (1) Calculated as the $54,230 in unpaid parking fees divided by an average of 4.26 years of not
    paying (see Appendix D).

    (2) Calculated as the maximum number of missing permits during any one of our parking lot
    inspections (5) multiplied by annual parking program revenue per participant ($45 per pay
    period times 26 pay periods)

Standard Operating Procedures and Program Evaluations Should be
Developed and Performed

In part, the above conditions occurred because standard operating procedures were
not developed and program evaluations or monitoring were not conducted.

Procedures for the following key parking operations had not been established
regarding:

•   Annual recertification of information on applications and demonstrated
    recertification on the parking permit (such as by placing a different brightly-
    colored, easily identifiable sticker on the parking permit each year).

•   Standardized issuance of temporary permits, preferably by electronic issuance
    of permits with a clear audit trail.

•   Periodic monitoring of GPO parking lots for cars parking without properly
    displayed permits and issuing the penalties as directed by GPO Directive
    850.16G.

•   Methods by which documents such as parking applications will be maintained.


                                                  10
•   How the Security Officer will audit records.

•   How unissued permits in GPO’s possession will be secured and tracked.

•   How returned or damaged permits will be destroyed, and a record of destruction
    created.

•   A method to coordinate with the GPO Office of Human Capital to identify
    employees that have separated from GPO without turning in their parking
    permit.

OMB Circular A-123, Management Accountability and Control, June 21, 1995 states
that managers “must take systematic and proactive measures to develop and
implement appropriate, cost-effective management controls for results-oriented
management.” OMB Circular A-123 also states that Agency managers should
continuously monitor and improve the effectiveness of management controls
associated with their programs.

Without a standard operating procedures and monitoring process in place, GPO
cannot know if the Parking Program is having its intended effect.

Recommendations

We recommend the Director of Security Services:

    1. Develop and implement a process to monitor the Parking Program in order
       to assess the quality of performance of the program and ensure that the
       findings of audits and other reviews are promptly resolved.

    2. Develop and implement a written Standard Operating Procedure to address
       goals and program objectives and, in doing so, include the processing of
       applications, allotments, changes in status, and accounting for all permits.

    3. Have all members of the parking program complete new applications and
       new allotment forms and reissue either new, re-designed parking permits or
       affix brightly-colored, easily identifiable stickers on the re-issued permits.

Management’s Response

Management concurred with Recommendations 1 through 3. The GPO Chief of
Physical Security has developed Standard Operating Procedures. The Standard
Operating Procedures provides specific internal auditing processes and procedures,
and gives step-by-step instructions for initial issuing of parking permits, canceling
permits, starting and stopping allotments, the control and destruction of permits,
change in status updating procedures, monitoring monetary processes, and


                                          11
handling program violations. GPO is planning a reissue of parking permits for
August 2012. At that time all parking participants will be required to recertify by
completing new applications prior to being issued a new permit. Also, parking
permits have been redesigned and additional security features added for better
control. Additionally permits will be controlled by the Chief, Physical Security and
secured at all times.

Evaluation of Management’s Response.

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open for reporting purposes pending
completion of the planned permit reissuance.

We recommend the Director of Security Services and the Chief Financial Officer:

   4. Work together to periodically reconcile Parking Program participants with
      allotments to verify the withholdings are accurate.

Management’s Response.

Concur. Both the GPO Offices of Security Services and Finance and Administration
have agreed to work together and implement a regular review process that will
match parking allotments against all parking program participants to ensure that all
active participants are paying the required parking fees.

Evaluation of Management’s Response.

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open for reporting purposes pending
our review and verification of the implemented process.

We recommend the Chief Financial Officer:

   5. Initiate collection of the $54,230 in unpaid parking fees.

Management’s Response.

Concur. The GPO Office of Finance and Administration’s Payroll Office initiated the
collection action in Pay Period 10. Several of the employees have already paid their
bills in full while others have requested a structured payment plan and are paying
their bills through payroll deductions. Three employees have requested waivers
and their collection actions have been held in abeyance pending the final decision on
their waivers.




                                         12
Evaluation of Management’s Response.

We verified management’s actions and the recommendation is resolved and closed
upon issuance of this report.




                                      13
Appendix A - Objectives, Scope, and Methodology

We performed the audit during March and April 2012 at the GPO Central Office in
Washington, D.C. We conducted the audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence that will provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Objectives

The objectives of the audit were to determine whether GPO managers properly
managed and documented the parking program.

Scope and Methodology

To meet our objectives we performed the following:
   • Reviewed policies and procedures in place for administering the GPO parking
      program by reading applicable criteria, holding discussions with
      management, and conducting a walk-through of the process.
   • Performed an inventory and accounting of parking permits,
   • Reconciled a random sample of issued parking permits with parking
      agreements and payment allotments.
   • Reconciled issued parking permits with payment allotments.
   • Walked through GPO parking lots on three separate occasions and recorded
      cars without properly displayed permits.

Management Controls Reviewed

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures the GPO management implemented
to reasonably ensure that the parking program operation met GPO’s objectives.

Validity and Reliability of Data – Policies and procedures that management has
implemented to reasonably ensure that valid and reliable data are obtained,
maintained, and fairly disclosed in reports (See Computer-Generated Data below).

Compliance with Laws and Regulations – Policies and procedures that management
has implemented to reasonably ensure that resource use is consistent with laws and
regulations.




                                        14
Appendix A - Objectives, Scope, and Methodology

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are contained in the
report narrative. Implementing the recommendations in this report should improve
those management control deficiencies.

Computer-generated data

We relied on computer-generated data during this audit. Specifically, we relied on
lists of permits lost/destroyed and records of employees in the parking program
obtained from Microsoft Access and Excel. We assessed the reliability of the data
but did not test general system and application controls. In order to test reliability
of lost/destroyed record and records of employees in the parking program, we
analyzed data and compared it within itself; discussed entry procedures and
discrepancies with the Parking Program Administrator; and compared electronic
entries to available manual records. From these tests, we determined that the data
was unreliable but nevertheless usable to meet our audit objectives. This occurred
because the Parking Program Administrator was incorrectly entering data and
entering data multiple times on different occasions.




                                          15
Appendix B – Management’s Response   ___________




                             16
Appendix B – Management’s Response   ___________




                             17
Appendix B – Management’s Response   ___________




                             18
Appendix B – Management’s Response   ___________




                             19
Appendix B – Management’s Response   ___________




                             20
Appendix B – Management’s Response   ___________




                             21
Appendix C – Results of Parking Lot Inspections

    Date                Inspection Result                   Lot         Employee in Parking
                                                                              Program
03/08/2012       Vehicle With No Permit                           55   Not an Employee
03/08/2012       Vehicle With No Permit                           55   Yes
03/08/2012       Permit Number Not Visible                        55   Yes
03/15/2012       Permit Number Not Visible                50/3 (1)     Yes
03/15/2012       Vehicle With No Permit                   50/3 (1)     Unknown
03/15/2012       Vehicle With No Permit                   50/3 (1)     Yes
03/15/2012       Vehicle With No Permit                          6     Unknown
03/15/2012       Permit Number Not Visible                     55      Yes
03/15/2012       Permit Number Not Visible                     55      Yes
03/15/2012       Permit Number Not Visible                     55      Yes
03/15/2012       Vehicle With No Permit                          8     Yes
03/15/2012       Vehicle With No Permit                          8     Not an Employee
03/29/2012       Permit Number Not Visible                50/3 (1)     Yes
03/29/2012       Wrong Lot                                50/3 (1)     Yes
03/29/2012       Vehicle With No Permit                   50/3 (1)     Unknown
03/29/2012       Permit Number Not Visible                50/3 (1)     Yes
03/29/2012       Permit Number Not Visible                50/3 (1)     Yes
03/29/2012       Permit Number Not Visible                50/3 (1)     Unknown
03/29/2012       Permit Number Not Visible                       7     Yes
03/29/2012       Vehicle With No Permit                          6     Contractor
03/29/2012       Wrong Lot                                       6     Yes
03/29/2012       Vehicle With No Permit                          6     No
03/29/2012       Permit Number Not Visible                       6     Yes
03/29/2012       Permit Number Not Visible                     55      Yes
03/29/2012       Permit Number Not Visible                     55      Yes
03/29/2012       Permit Number Not Visible                     55      No
03/29/2012       Permit Number Not Visible                     55      Unknown
(1) The vehicle was parked on the border of Lot 50 and Lot 3.




                                                 22
     Appendix D - Employees in Parking Program Without Allotments
                         Number of Pay
              Date          Periods/
            Entered     Years in Program        Amount
Employee    Program        Not Paying            Owed         Employee Explanation
                                                         Never reviewed Earnings and
1          01-6-2004       101/3.88          $2,626.04   Leave Statement.
                                                          Never reviewed Earnings and
2          10-12-2005       164/6.3          $4,264.00   Leave Statement.
                                                         Mistakenly believed allotment was
3          01-23-2008      103/3.96          $2,678.00   coming out of his pay.
                                                         Mistakenly believed allotment was
4          09-01-2004       120/4.6          $3,120.00   coming out of her pay.
                                                         Never reviewed Earnings and
5          12-23-2009        56/2.2          $1,456.00   Leave Statement.
                                                         Never reviewed Earnings and
6          06-24-2007      150/5.75          $3,898.00   Leave Statement.
                                                         Never reviewed Earnings and
7          05-21-2001       165/6.3          $4,290.00   Leave Statement.
                                                         Never reviewed Earnings and
8          01-18-2002        131/5           $3,406.00   Leave Statement.
                                                         Never reviewed Earnings and
9          08-08-2006        131/5           $3,406.00   Leave Statement.
                                                         Never reviewed Earnings and
10         08-27-2004       16/1.33              $416    Leave Statement.
                                                         Never reviewed Earnings and
11         05-23-2001       184/7.1          $4,784.00   Leave Statement.
                                                         Never reviewed Earnings and
12         12-01-2004       120/4.6          $3,120.00   Leave Statement.
                                                          Never reviewed Earnings and
13         08-31-2004        131/5           $3,406.00   Leave Statement.
                                                         Mistakenly believed allotment was
14         01-15-2009       81/3.11          $1,919.70   coming out of her pay.
                                                         Never reviewed Earnings and
15         08-16-2006        91/3.5          $2,366.00   Leave Statement.
                                                         Mistakenly believed allotment was
16         09-01-2004        53/2            $1,378.00   coming out of her pay.
                                                          Never reviewed Earnings and
17         09-01-2004       122/4.7          $3,172.00   Leave Statement.
                                                          Never reviewed Earnings and
18         02-04-2010        53/2            $1,378.00   Leave Statement.
19         07-13-2004       121/4.7          $3,146.00   On LWOP since 2010.
Total                                        $54,230




                                           23
Appendix E - Status of Recommendations

Recommendation        Resolved   Unresolved    Open/ECD*        Closed
      1                  X                    August 31, 2012
      2                  X                    August 31, 2012
      3                  X                    August 31, 2012
      4                  X                    August 31, 2012
      5                                                           X

*Estimated Completion Date.




                                    24
Appendix F - Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       25
Major Contributors to the Report

Karl Allen, Lead Auditor
David Hilburg, Senior Auditor




                                26
